:»■ ‘

No.

In the Supreme Court of the United States

Samuel T. Russell,
Petitioner,
v.

7f

IP
3

' iSte i

-j $

yi
State of Texas,

Rl

il

a
£*!3

FILED
JAN 0 1 2021

Respondent.

9.F.prfMFF COURTLURSK

On Petition for a Writ of Certiorari to
United States Court of Appeals for the
Federal Circuit

PETITION FOR A WRIT OF CERTIORARI
/■

Samuel T. Russell

RECEIVED
JAN 13 202)

LiGBBgaigfflx
V

J

I.

QUESTION PRESENTED

This petition presents the following question:
When the United States Court of Appeals for the Fifth Circuit (“ Court) said they
reviewed “an Eleventh Amendment immunity determination de novo,” did not they
fail the Spirit of the Framers’ written intent when the 11th Amendment plainly
reads that States cannot be sued by “(l) Citizens of another State, or by (2) Citizens
or (3) Subjects of any Foreign State!” was the Court not applying this oversight to
Rules of law that discredit Bill of Rights Amendment 1, which says “Congress shall
make no law ... abridging ... the right of the people ... to petition the Government
for a redress of grievances,” Amendment 4, which says “The right of the people
...against unreasonable searches and seizures, shall not be violated,” Amendment 5,
which says “No person shall be held ... without due process of law,” Amendment 7,
which says “In Suits at common law, ... the right of trial by jury shall be preserved,”
Amendment 9, which says “The enumeration in the Constitution, of certain rights,
shall not be construed to deny or disparage others retained by the people,” and
Amendment 10, which says “The powers not delegated to the United States by the
Constitution ... are reserved ... to the people.'” as well as rejecting the case history
rulings in Apodaca v. Oregon, 406 US. 404 (1972), Ramos v. Louisiana, 590 US.
v

(2020), Hernandez v. Texas, 347 U.S. 475 (1954), and Taylor v. Illinois, 484 U.S.
400!for where is it written that “Federal court jurisdiction is limited by the 11th

V

U

Amendment and the principle of sovereign immunity it embodies (as written by the
Court);” whereas, the Eleventh Amendment does not include a fourth 4th variable
saying that a citizen suing his own State is barred by State sovereign immunity!
thus, where does the XI Amendment bar an individual from suing its own state as
were not the GOD-led Framers of the 11th Amendment crystal clear when they
plainly told the future Courts that States cannot be sued by “(l) Citizens of another
State, or by (2) Citizens or (3) Subjects of any Foreign State,” as well as clearly and
validly abrogated the state’s sovereign immunity only applies to “ (1) Citizens of
another State, or by (2) Citizens or (3) Subjects of any Foreign State?”

111.

II.

PARTIES TO THE PROCEEDING

All parties are listed in the caption.
III.

RULE 29.6 STATEMENT

The petitioner is not a nongovernmental corporation, nor does the petitioner have a
parent corporation or shares held by a publicly traded company.

IV.

STATEMENT OF RELATED CASES

United States Court of Appeals for the Fifth Circuit:
Samuel Russell v. State of Texas, No. 20-10252 (5th Cir. 2020).
United States District Court:
Samuel Russell v. State of Texas, USDC No. 3:i9-CV-334.

IV.

V.

TABLE OF CONTENTS

QUESTION PRESENTED

1

PARTIES TO THE PROCEEDING

m

RULE 29.6 STATEMENT

ni

STATEMENT OF RELATED CASES

in

TABLE OF CONTENTS

IV

TABLE OF AUTHORITIES

v

PETITION FOR A WRIT OF CERTIORARI

1

OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL PROVISIONS INVOLVED

1

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE PETITION

6

CONCLUSION

7

CERTIFICATE OF SERVICE

9

APPENDIX

10

Opinion, United States Court of Appeals for the United States Court of Appeals
For the 5th Circuit, October 5, 2020

App. 1

CERTIFICATE OF COMPLIANCE

11

V.

VI.

TABLE OF AUTHORITIES
Cases

Apodaca v. Oregon, 406 US. 404 (1972).....

n

Hans v. Louisiana, 134 U.S. 1, 10-16 (1890)

6

Hernandez v. Texas, 347 U.S. 475 (1954)

n

Ramos v. Louisiana, 590 U.S. (2020)

u

Taylor v. Illinois, 484 U.S. 400

u
Statutes

US Bill of Rights Amendment 1

i,1,4,5

US Bill of Rights Amendment 4

i,2,4

US Bill of Rights Amendment 5

i,2,6

US Bill of Rights Amendment 7

i,3,6

US Bill of Rights Amendment 9

i,3,4

US Bill of Rights Amendment 10

i>3,5

US Constitution Amendment 11

i,ii,3"7

J

1
VII.

Petition For a Writ of Certiorari

Samuel T. Russell, a State of Texas citizen, respectfully petitions this court for a
writ of certiorari to review the judgment of the United States Court of Appeals for
the Fifth Circuit on an appeal from the United States District Court for the
Northern District of Texas USDC No. 3:l9-CV-334.
VIII. Opinions Below
The decision denying Mr. Russell’s direct appeal is reported as Samuel Russell v.
State of Texas, No. 20-10252 (5th Cir. 2020). The United States Court of Appeals for
the Fifth Circuit denied Mr. Russell’s petition for hearing on October 5, 2020. That
order and Justices Clement, Higginson, and Engelhardt’s dissent is attached at
Appendix pp. 1-3.
IX.

Jurisdiction

Mr. Russell’s petition for hearing to the United State Court of Appeals for the Fifth
Circuit was denied on October 5, 2020. Mr. Russell invokes this Court's jurisdiction
under 28 U.S.C. § 1257, having timely filed this petition for a writ of certiorari
within ninety days of the United States Court of Appeals for the Fifth Circuit
judgment.
X.

Constitutional Provisions Involved

United States Constitution Amendment D
No person shall be held to answer for a capital, or otherwise infamous crime,
unless on a presentment or indictment of a Grand Jury, except in cases arising in

2

the land or naval forces, or in the Militia, when in actual service in time of War or
public danger! nor shall any person be subject for the same offense to be put twice in
jeopardy of life or limb; nor shall be compelled in any criminal case to be a witness
against himself, nor be deprived of life, liberty, or property, without due process of
law; nor shall private property be taken for public use, without just compensation.
United States Constitution Amendment 4The right of the people to be secure in their persons, houses, papers, and
effects, against unreasonable searches and seizures, shall not be violated, and no
Warrants shall issue, but upon probable cause, supported by Oath or affirmation,
and particularly describing the place to be searched, and the persons or things to be
seized.
United States Constitution Amendment 5No person shall be held to answer for a capital, or otherwise infamous crime,
unless on a presentment or indictment of a Grand Jury, except in cases arising in
the land or naval forces, or in the Militia, when in actual service in time of War or
public danger; nor shall any person be subject for the same offence to be twice put in
jeopardy of life or limb; nor shall be compelled in any criminal case to be a witness
against himself, nor be deprived of life, liberty, or property, without due process of
law; nor shall private property be taken for public use, without just compensation.

3

United States Constitution Amendment 7In suits at common law, where the value in controversy shall exceed twenty
dollars, the right of trial by jury shall be preserved, and no fact tried by a jury, shall
be otherwise reexamined in any Court of the United States, than according to the
rules of the common law.
United States Constitution Amendment 9The enumeration in the Constitution, of certain rights, shall not be construed
to deny or disparage others retained by the people.
United States Constitution Amendment IQ:
The powers not delegated to the United States by the Constitution, nor
prohibited by it to the States, are reserved to the States respectively, or to the
people.
United States Constitution Amendment 11The Judicial power of the United States shall not be construed to extend to
any suit in law or equity, commenced or prosecuted against one of the United States
by Citizens of another State, or by Citizens or Subjects of any Foreign State.
XI.

Statement of the Case

What caused the Court to uphold non-Congressional approved sovereign
immunity when the Court says “Federal court jurisdiction is limited by the 11th
Amendment and the principle of sovereign immunity it embodies;” and does this
opinion coincide with the 11th Amendment, as founded by the Fathers of the U.S.

4
Constitution when they were led by GOD, as docs not Amendment 4 “embod(y)” the
non-Congressional approval when it says “the right of the people to be secure ...
against unreasonable searches and seizures, shall not be violated...,” or do the Bill
of Rights and the 11th Amendment lack “federal court jurisdiction?”
Where did the Court read that the Spiritually led Founding Fathers wrote that
the 11th Amendment does “bar an individual from suing (its own) state” when it is
crystal clear that the 11th Amendment, did not combine nonresident citizens equal
to same state citizens by barring out same state citizens, and is not such unequal
combination, of “residents (and) nonresidents,” frowned upon in the Bill of Rights
Amendment 9, which says “the enumeration in the Constitution, of certain rights,
shall not be construed to deny or disparage others retained by the people,” or did
“Congress (not) clearly and validly abrogate” the Bill of Rights and “bar(red a
citizen) from suing (his own) state”?
Why can the Court be against the 11th Amendment when the GODly Founding
Fathers who wrote it did not specify that “Texas (needed to)... consent to be sued in
federal court,” for where does the 11th Amendment read that State has to consent
for its citizens to sue that State when the State can sue its citizens, and is not this
double standard addressed in the Bill of Rights Amendment 1 which guides Justices
on this subject matter (consent), when it says “Congress shall make no law ...
prohibiting the ... right of the people ... to petition the Government for a redress of

5
grievances,” or does enforcement of the Bill of Rights and the 11th Amendment
“require consent?”
How come the Courts are ignoring the fact that Congress’ “passage of section
1983” aligns with the 11th Amendment; surely, were not the Founding Fathers
(followers of Jesus Christ) impartial to a “stateOs) sovereign immunity” by not
applying the 11th Amendment to an in-State citizen as Bill of Rights Amendment 1
openly reads “Congress shall make no law ... abridging ... the right of the people ...
to petition the Government for a redress of grievances,” and where has Congress,
ever granted “State Cs) sovereign immunity from its State citizens for whom the
State often sues, is not this in violation of justice?
When did the Court recognize that “Russell’s text-based argument is not entirely
without foundation,” was not the Court acknowledging that the 11th Amendment
does not bar a citizen from suing his or her own state, based on the Founding
Fathers Spiritually faithful purpose of the Law, and will not this Court also
substantiate “Russell’s text-based argument” prove that Bill of Rights Amendment
10, which says “The powers not delegated to the United States by the Constitution
... are reserved ... to the people” is in accord with the Eleventh Amendment, and
that both the Bill of Rights and 11th Amendment have merited “foundation(al)”
value?
Who can authorize the Court to combine “own citizens” equal to “citizens of
another State,” as evidently this is contrary to the 11th Amendment separation of

6
citizenships; whereas, the Founding Fathers’ (listening to GOD in their hearts) did
not combine “own citizens” with “citizens of another State” and emphasize costs
over claims of others because the Bill of Rights 7 says “in Suits at common law, ...
the right of trial by jury shall be preserved,” or are “own citizens” actually from
more than one State?
Why is justice so confusing when the Court says “While the Amendment by its
terms does not bar suits against a State by its own citizens” then the Court says
“[t]he Eleventh Amendment bars private citizens from bringing suit against a
state!” does not the Spiritually guided Founding Fathers’ 11th Amendment speak for
itself about no “exception(s)” (as noted by the Court) being granted by Congress,
thus is not the Court backsliding on the US Constitution when the 11th Amendment
bars only non-citizens of that State! and does not the Bill of Rights Amendment 5
settle any legal confusion as to Rights of Citizens when it says “No person shall be
... deprived of life, liberty, or property, without due process of law!” and lastly, will
this Court enforce the Rules of Law as they are written?
Reasons for Granting the Petition
The Appeals Court quoted from Hans v. Louisiana, 134 U.S. 1, 10-16 (1890)
that ‘a federal court could not entertain a suit brought by a citizen against his own
State, ’but where is it written in the governing Rules of law for the Court or within
the 11th Amendment that says ‘a federal court could not entertain a suit brought by
a citizen against his own State?’

7
The 11th Amendment failed to include that a (4th variable) citizen is barred
from suing his own State, while the State often sues its own citizens.
On the contrary, the 11th Amendment clearly does not have a 4th variable
sovereign immunity component that grants sovereign immunity for ‘lack ofsubject
matterjurisdiction ’ to a State when its own citizen is suing for guaranteed Federal
Rules of Law and Bill of Rights violations.
This case presents this Court with a duty to clarify the lack of jurisdiction
intent of the 11th Amendment, which is that ‘a Federal Court (can) entertain a suit
brought by a citizen against his own State’when Federal rights applies clearly to
that citizen.
Absent intervention by this democratically legitimate Court, the Court of
Appeals' (5th Circuit) published decision, that was based on a non-Congressionally
approved invisible within the 11th Amendment governing Rule of Law, as well as
opposed by the Bill of (citizens’) Rights, 4th variable component, will work to
undermine the carefully-crafted procedural democratic Rules of governing Laws
that this Court and the Framers of the Constitution spent years Spiritually
developing.
XII.

Conclusion

For the foregoing reasons, Mr. Russell respectfully requests that this Court issue a
writ of certiorari to review the judgment of the United States Court of Appeals for
the Fifth Circuit.

8
DATED this 3rd day of January. 2021.
\

l'

Samuel T. Russell
5412 Stoneboro Trail
rtnllnr.
HTY ~ KO A 1
X/UUUO, X XI lOXrf'XX

(214) 374-3465
freedbyg@sbcglobal.net

